No.:

IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody,
Respondent(s).

PROOF OF SERVICE
I, VLADIMIR EUGENE, Petitioner pro se, hereby swear or declare on this
16th day of June, 2021, as required by Supreme Court Rule 29 I personally handed a
true copy of “AMENDED MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS ” and “AMENDED PETITION FOR WRIT OF CERTIORARI” to an
official at DeSoto Annex for the sole purpose of mailing via first class U. S. Mail
postage prepaid to all parties required to be served as follow:
•

Office of the Clerk, Supreme Court of the United States, 1 First Street
Northeast, Washington, DC 20543-0001; and

•

Office of the Attorney General; 1515 North Flagler Drive, Suite 900! West
Palm Beach, Florida 33401.
I declare under penalty of perjury that the foregoing is true and correct

Executed on June 16, 2021

e^ETC# B04065
Petitioner, Pro se
\

i/t?,

•S<0~

No.:

IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody,
Respondent(s).

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that this Petition for
Writ of Certiorari contains 6672 words on 23 pages, excluding the parts of the
petition that are exempt by Supreme Court Rule 33.1(d). I declare under penalty of
perjury that the foregoing is true and correct.

y

Vladimir Eugene, DC# B04065
Petitioner, Pro se

Executed on this 16th day of June, 2021.

